TN

@OCKLE

* E-Mail Address:
Le ga 1 Brie fs contact@cocklelegalbriefs.com
Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No.

DAVID MCMAHON AND THE TEXAS DIVISION, SONS
OF CONFEDERATE VETERANS, INCORPORATED,
RICHARD BREWER, TEXAS DIVISION, SONS
OF CONFEDERATE VETERANS, INCORPORATED,
Petitioners,

Vv.

PRESIDENT GREGORY L. FENVES, RON NIRENBERG,
ROBERTO TREVINO, WILLIAM SHAW, REBECCA
VIAGRAN, REY SALDANA, SHIRLEY GONZALES,
GREG BROCKHOUSE, ANA SANDOVAL, MANUAL

PALAEZ, JOHN COURAGE, CLAYTON PERRY,
CITY OF SAN ANTONIO,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 5551 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 28th day of May, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

f GENERAL BOTARY State of Nebraska
RENEE J. GOSS
ly Corn. Exp. September 6, 2023

Notary Public / Affiant 39663

   

 
